No.

Jf n tbe $)uprente <!Court of tbe mintteb $)tate%
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL .,

Petitioners,
V.

ROBERT R. MCCORMICK FOUNDATION, ET AL.,

Respondents.

CERTIFICATE OF SERVICE

I, Joshua S. Bolian, a member of the Bar of this Court, hereby certify that on
this 6th day of July, 2020, all parties required to be served have been served. Per
the Court's Order regarding filings, dated April 15, 2020, an electronic copy was
served on the following:

David M. Zensky
Akin Gump Strauss
Hauer
& Feld LLP
One Bryant Park
New York, NY 10036
(202) 887-4000
dzensky@akingum p. com

Robert J. Lack
Jeffrey R. Wang
Friedman Kaplan Seiler
& Adelman LLP
7 Times Square
New York, NY 10036
(212) 833-1100
r lack@fkla w. com

Counsel for Petitioners

Jay Teitelbaum
Teitelbaum & Baskin,
LLP
1 Barker Avenue, Third
Floor
White Plains, NY 10601
(914) 437-7670
jteitelbaum@tblawllp.com

Philip D. Anker
Alan E. Schoenfeld
Wilmer Cutler Pickering Hale and
Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
philip.anker@wilmerhale.com

Counsel for Financial Institution Holders
The above-listed counsel for Respondents Financial Institution Holders has
agreed to accept electronic service on behalf of the Defendants' Executive
Committee and to distribute the electronic papers to that Committee. Consistent
with the November 21, 2013, Case Management Order from the U.S. Court of
Appeals for the Second Circuit (ECF No. 63, Case No. 13-3992 (2d Cir., Nov. 21,
2013)), counsel for Respondents will provide copies of the Petition to defendants
that are Respondents here, and will provide notice of this Petition on the Tribune
Defendants website, http://www.tribune-defendants.com. Notice of the Petition will
also be filed on the district court docket in In re: Tribune Co. Fraudulent

Conveyance Litig., Case No . ll-MD-2296 (RJS) (S.D.N.Y.).

Respectfully sub mitted,

'
Joshua S. Bolian
Robbins, Russell, Englert,
Orseck, Untereiner & Sauber LLP
2000 K Street, N.W.
Washington, DC 20006
(202) 775-4500
Counsel for Petitioners

